APPENDIX

i

I

I

I •

COURT OF COMMON PLEAS OF MONROE COUNTY
FORTY-THIRD JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA

COMMONWEALTH OF PENNSYLVANIA

1582 CR 2006

vs.
MIGUEL GONZALEZ,
Petitioner

PCRA PETITION
\
ORDER

AND NOW, this 15th dav of March, 2019, upon consideration of Petitioner’s Postconviction Relief Act Petition, and after a review of the record, testimony from the hearing in this
•natter, and briefs filed by counsel, Petitioner’s PCRA Petition is DENIED.
Petitioner is advised that he has thirty (30) days from the date of this Order within which to
lie an appeal with the Pennsylvania Superior Court.
IT IS FURTHER ORDERED that the Clerk of Courts is directed to serve a copy of this
decision upon the Petitioner by certified mail, return receipt requested and upon the Office of the
District Attorney of Monroe County.
B

[t^

ARGl/tfRITA'PAli^1-WORteJUNGTON, P.J.
\
cc:

District Attorney
/.
/
Brian Gaglione, Esq.-Court Appointed counsej
Miguel Gonzalez, Petitioner
HX-4697
V
Box 244
Graterford, PA 19426
Court Administration
MPW20I9-012

L vi'-kof C*u

1019 AHioisii

i

!
\

10

COURT OF COMMON PLEAS OF MONROE COUNTY
FORTY-THIRD JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA

COMMONWEALTH OF PENNSYLVANIA

1582 CR 2006

vs.
PCRA PETITION

MIGUEL GONZALEZ,
Petitioner
OPINION

i.

This matter comes before the Court on Miguel Gonzalez' (hereinafter “Petitioner’) Petition
for Post-Conviction Collateral Relief (hereinafter “PCRA”). We consider whether the invocation
of the United States Supreme Court’s decision in McCoy v. Louisiana1 satisfies the newlyrecognized constitutional right exception to the time limit prescribed by the Post Conviction
Relief Act.
On November 18, 2006, police responded to a report of Jeannette Claudio lying dead in a
house. Petitioner also had a head wound and a loaded gun was found lying next to his body.
Petitioner was arrested and removed in an ambulance. Petitioner survived and was apparently
able to recover from the head wound. The couple’s two children were in the residence at the time
of the murder. At trial, Petitioner failed to convince the jury ,of his diminished capacity.
Petitioner was convicted on December 8, 2008 of Criminal Homicide Murder in the First Degree,
two counts of Recklessly Endangering Another Person, Former Convict in possession of a
Firearm, and Intercept Communications.

138 S. Ct. 1500 (2018). Petitioner appears to raise this as the third exception to the PCRA timeliness requirements,
i.e., “the right asserted is a constitutional right that was recognized by the Supreme Court of the United States or the
Supreme Court of Pennsylvania after the time period provided in this section and has been held by that court to
apply retroactively.” See 42 Pa. C.S. § 9545(b)(lX»if)-

On January 12, 2009, Petitioner was sentenced to life imprisonment without parole followed
by incarceration of not less than four, nor more than eight years. On February 10,2009,
Petitioner filed his notice of appeal to the Pennsylvania Superior Court arguing violation of his
state and federal right to present a defense, failure to instruct the jury on lesser degrees of
homicide, and insufficiency of the evidence. A memorandum decision filed on December 30,
2009, by the Superior Court affirmed the conviction and judgment of sentence.
On January 29,2010, Petitioner filed a petition for allowance of appeal with the
Pennsylvania Supreme Court, which was denied on July 14,2010. Petitioner did not file any
petition for Post-Conviction Relief at the state court level following the denial of the petition for
allowance of appeal.
On December 9,2010, Petitioner filed a pro se petition for federal habeas corpus relief in the
United States District Court for the Eastern District of Pennsylvania. Petitioner argued
ineffective assistance of counsel, and prosecutorial misconduct. By Order dated May 13,2011,
the case was transferred to the United Slates District Court for the Middle District of
Pennsylvania. The District Court denied Petitioner’s habeas corpus petition for failure to exhaust
state remedies and concluded that “[Petitioner] failed to qualify for any exception for his
procedural default, as he ha[d] not alleged either cause and prejudice or a fundamental
miscarriage of justice.” Gonzalez v. Pennsylvania, No. 4: CV-11-0955, 2014 WL 2090699, at *3
(M.D. Pa. May 16, 2014). On July 19,2016, the United States Court of Appeals for the Third
Circuit affirmed the District Court’s May 16,2014 order denying Petitioner’s petition for habeas
corpus relief. Petitioner filed an appeal to the U.S. Supreme Court on January 12, 2017, which is
still pending.

2 .

rh

On July 19, 2018, Petitioner filed the instant pro .ye Motion for Post-Conviction Collateral
Relief and We appointed counsel on August 3, 2018. On November 30, 2018, the
Commonwealth filed its Answer and Brief in Opposition to Petitioner's pro se Motion for PostConviction Collateral Relief. A hearing on Petitioner’s PCRA petition was held on January 7,
2019.
Petitioner alleges in his present PCRA that his trial counsel was ineffective by questioning
his innocence, presenting a diminished capacity defense without consulting Petitioner of the
overall trial strategy, and contradicting Petitioner’s testimony in court. Petitioner alleges a
violation of his constitutional right “to decide on the objective of his defense.” Pet. Br. at 4.
DISCUSSION
Petitioner has filed a PCRA claim arguing a violation of his constitutional rights under the
Sixth Amendment of the U.S. Constitution2 as incorporated to the Commonwealth by the
Fourteenth Amendment (A). Petitioner avers he satisfies his burden under 42 Pa. C. S, §
9545(b)(1), notwithstanding the date his sentence became final for purposes of PCRA relief. If
untimely, We have no jurisdiction to address the merits of Petitioner’s PCRA. Com. v. Fahy, 737
A.2d 214, 223 (1999).
A. Petitioner fails to meet his burden under the 42 Pa. C. S. § 9545
Petitioner invokes § 9545(b)(l)(iii) by arguing that he meets the timeliness exception by
filing within one year of the date his constitutional claim arose (7), and arguing a newly
recognized constitutional right applies retroactively to his trial proceedings (2). The Court
considers these arguments in turn. It is the Petitioner’s burden to allege and prove that one of the
“In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an impartial jury of
the State and district wherein the crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining witnesses in his favor, and to have the Assistance of Counsel
for his defence.” U.S. Const. Amend. VI.
3

timeliness exceptions applies. Com v. Edmiston, 65 A.3d 339, 346 (Pa. 2013). Whether a
petitioner has carried his burden is a threshold inquiry that must be resolved prior to considering
the merits of any claim. Id.
I. The PCRA Petition was timely filed
PCRA petitions must be tiled “one year of the date the judgment becomes final.'1 See 42 Pa.
C. S. § 9545(b)(1). For these purposes, a judgment is deemed final “at the conclusion of direct
review, including discretionary review in the Supreme Court of the United States and the
Supreme Court of Pennsylvania, or at the expiration of time for seeking the review.’* 42 Pa. C.S.
§ 9545(b)(3). Only very narrow exceptions apply to the jurisdictional time constraints on a
PCRA Petition. See § 9545(b)( 1 )(i>—(iii). Petitioner, however, argues he meets a timeliness
exception under 42 Pa. C.S. § 9545(b)(l)(iii). See 42 Pa. C.S. § 9545(b)(l )(iii) (providing an
exception to the time limit upon recognition of a new constitutional right that is held to apply
retroactively to petitioners whose judgments of sentence have become final).
The crux of Petitioner’s argument relies on McCoy v. Louisiana as an exception to the
timeliness requirements of 42 Pa.C.S. § 9545(b)(iii) by alleging a new constitutional right.
“When the exception asserted is Section 9545(b)( 1 )(iii), the [time] runs from the date of the
germane decision.” Com. v. Secreti, 134 A.3d 77, 80 (2016).
The Commonwealth responds that the Petition for AUocalur was denied by the Pennsylvania
Supreme Court on July 14, 2010. Therefore, the Commonwealth contends that following the
denial of the Allowance of Appeal, Petitioner’s judgment of sentence became final on July 14,
2010 and is, therefore, untimely. We disagree with the Commonwealth.
Petitioner relies on McCoy v. Louisiana to satisfy the first prong of the timeliness exception
of § 9545(b)(l )(iii). Petitioner does not contend that his PCRA is timely, but instead that it meets
4

one of the express statutory exceptions. Importantly, § 9545(b)(2) was amended by the 2018
Pennsylvania Legislative Service Act,3 which extends the previous 60-day time limit for filing
purposes to a year for claims arising on Dec. 24, 2017 or thereafter. Furthermore, McCoy was
decided by the U.S. Supreme Court on May 14,2018. Thus, Petitioner had until May 1.4,2019 to
i

bring a claim under the timeliness exception of § 9545(b)(l )(iii), because he falls under this
category. Accordingly, the PCRA satisfies the timeliness exceptions. The Court can now turn to
addresses whether McCoy can offer any relief to Petitioner.
2. McCoy analysis
Subsection (Hi) of Section 9545 requires the petitioner prove both that a new
constitutional right has been recognized by either the Pennsylvania or U.S. Supreme Court (a)
and that the right has been held by that court to apply retroactively (b). Com. v. Abdul-Salaam,
812 A.2d 497, 501 (Pa. 2002). Thus, it is Petitioner’s burden to meet both prongs under the
statute.
a. McCoy does not recognize a “new” constitutional right
In Robinson, the Pennsylvania Supreme Court noted that “[i]n general, the proper way to
seek to secure innovations in constitutional law is upon direct review, not via the PCRA.” Com.
v. Robinson, 82 A.3d 998, 1021 (2013). This is because the PCRA provides a means to obtain
relief based on existing or newly-recognized constitutional rights. 42 Pa.C.S. § 9543(a)(2)(i); §
9545(b)(l)(iii). Therefore, right must first exist for a petitioner to claim it as a basis for relief.

Pa. Leg. Serv. Act, 20)8-146 (S.B. 915).
5

On post-verdict motions, Petitioner could have claimed that his Sixth Amendment rights
had been violated or infringed upon. Here, however, appellant argues a new substantive
constitutional rule has been recognized, and then to have that rule applied to him retroactively.
The Court is skeptical of Petitioner’s argument.
Petitioner presently argues that McCoy is a new constitutional rule. Specifically, Petitioner
contends the “Sixth Amendment [now] guarantees a right to choose the objective of [the] defense
and to insist that [] counsel refrain from admitting guilt even when counsel’s experience-based
view is that confessing guilt offers the defendant the best chance to avoid the death penalty.” Pet.
Br. at 3 (citing McCoy, 138 S. Ct. at 1505).
Notwithstanding Petitioner’s argument. We fail to see how McCoy recognizes a new
constitutional right applicable to Petitioner’s case. “The right or rule established by the Supreme
. Court must touch upon the facts or procedure that resulted either in the petitioner’s conviction or
sentence.” Com. v. Spotz, 171 A.3d 675, 681 (2017). McCoy is factually distinguishable from
Petitioner’s case and does not apply to the present circumstances.
McCoy and its ancestor, Nixon,4 both relied on strategic decisions involving the
concession of guilty acts to avoid the death penalty, something that was not debated during the
case at hand. “[F]or purposes of the newly-recognized constitutional right exception, a person
serving a sentence of life imprisonment cannot invoke new constitutional rights that govern only
death penalty cases ...” Id. Here, there appears to be no such consideration by either Petitioner
or trial counsel, which distinguishes the facts from precedential considerations. In addition,
McCoy appears to announce the manner, in which a defendant must act in order to qualify for
Sixth Amendment relief when counsel goes against his directions, not a “new”.constitutiona!
4 Fla. v. Nixon, 543 U.S. 175 (2004),

6

• f

right. McCoy, 138 S.. Ct. at 1507; see e.g., Cooke v. State, 977 A.2d 803, 842 (Del. 2009)
(defendant’s “vociferous and repeated protestations... deprived Cooke of his constitutional
right to make the fundamental decisions regarding his case.”); (citing Nixon at 186-187). The
majority’s opinion in McCoy went through great pains to distinguish its reasoning from Nixon
and draw upon existing case law to cement its holding.
Notwithstanding the U.S. Supreme Court’s holding in McCoy, Pennsylvania has long
held that counsel has “a duty to gain the consent of a defendant regarding the overarching
objective or purpose of a defense, and leaves to counsel the authority to control the many aspects
involving strategy and tactics in achieving those objectives.” Com. v. Mason, 130 A.3d 601,
667-68 (Pa. 2015) (quoting Com. v. Sam, 635 A.2d 603, 611-12 (1993)); Pa. R. Pro. Rep. 1.2(a).
We fail to understand why Petitioner brings this claim now when he could have asserted the
same substantive rule under the laws and Constitution of the Commonwealth during or after trial.
The Pennsylvania Supreme Court and the Pennsylvania Rules of Professional Conduct stated at
the time of Petitioner’s trial that the client, not counsel, decides the objectives of representation.
Counsel may advise as to the best means by which to pursue those objectives, but has no right, to
override what the client deems to be in his best interest. Sam, 635 A.2d at 611.
Under the guidance and language of the aforementioned authorities, We conclude that
McCoy applies an established rule to a new set of facts, it does not recognize a new constitutional
right. Even assuming arguendo that McCoy recognizes a new constitutional right, Petitioner
would still fail to meet the second prong under § 9545.

7

b. McCoy does not apply retroactively
As mentioned above, Petitioner urges this Court to conclude, that McCoy is fully retroactive
on timely collateral reviews. The Pennsylvania Supreme Court interpreted the statutory language
to mean that a retroactivity determination must exist at the time that the petition is filed. AbdulSalaam, 812 A. 2d at 502.
“Under the [Pennsylvania] framework, an old rule applies both on direct and collateral
review, but a new rule is generally applicable only to cases that are still on direct review.” Com.
v. Ross, 140 A.3d 55, 59 (Pa. Super. 2016) (emphasis added). “A new rule applies retroactively
in a collateral proceeding only if (1) the rule is substantive or (2) the rule is a ‘watershed rule of
criminal procedure’ implicating the fundamental fairness and accuracy of the criminal
proceeding.” Id. Similarly, on the federal level, a new rule of constitutional significance must be
made explicitly.
Because McCoy involves a Sixth Amendment claim, this issue is properly controlled by the
holding in Tyler.5 In Tyler, the U.S. Supreme Court held that “a new rule is not made retroactive
to cases on collateral review unless the Supreme Court holds it to be retroactive.” Tyler, 533
U.S. 656, 663; 28 IJ.S.C.A. § 2255. The U.S. Supreme Court must explicitly hold, or several of
its decisions dictate, that a particular rule is made retroactively applicable to cases on collateral
review. In re Turner, 267 F.3d 225,231 (3d Cir. 2001). Retroactivity is, thus, properly analyzed
as a threshold question. We cannot attempt to define what may or may not constitute a new rule
for retroactivity purposes. In general, however, the only way the U.S. Supreme Court can, by
itself, “lay out and construct” a rule’s retroactive effect, or “cause” that effect “to exist, occur, or
appear,” is through its holding. Tyler, 533 U.S. at 663. Therefore, the relevant question is not

5 Tyler v. Cain, 533 U.S. 656, 663 (2001).

8

whether the Supreme Court should make a case applicable retroactively or suggested the same.
but whether it has actually done so.
In McCoy, the U.S, Supreme Court made no express determination regarding its retroactive
f

application to cases that have already been adjudicated. Petitioner cannot find relief because
McCoy appears to apply to future proceedings, not past ones. Thus, Petitioner has failed to
satisfy his burden under 42 Pa.C.S. § 9545 to prove a meritorious exception to the PCRA timebar, We are without jurisdiction to offer him any relief. Com. v. Jackson, 30 A.3d 516, 523 (Pa.
Super. 2011).
Accordingly, we enter the following Order:

9

APPENDIX
B

\
i

J. A21043/20

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.
MIGUEL GONZALEZ,

No. 840 EDA 2020
Appellant

Appeal from the PCRA Order Entered March 15, 2019,
In the Court of Common Pleas of Monroe County
Criminal Division at No. CP-45-CR-0001582-2006

BEFORE: LAZARUS, J., DUBOW, J., AND FORD ELLIOTT, P.J.E.

MEMORANDUM BY FORD ELLIOTT, PJ.E.:

FILED NOVEMBER 16, 2020

Miguel Gonzalez appeals from the March 15, 2019 order, entered in the
Court of Common Pleas of Monroe County, denying his PCRA petition.1 After
careful review, we affirm.
Appellant

was

charged

in

Jeannette Claudio, his girlfriend/wife.2

connection

with

the

death

of

The relevant factual history is as

follows:
On November 18, 2006, police responded to a report
of Jeannette Claudio lying dead in a house.
[Appellant] also had a head wound and a loaded gun
was found lying next to his body. [Appellant] was
arrested and removed in an ambulance. [Appellant]
survived and was apparently able to recover from the
1 42 Pa.C.S.A. §§ 9541-9546.
2 Ms. Claudio is alternatively referred to as either appellant's girlfriend or wife.

J. A21043/20
head wound. The couple's two children were in the
residence at the time of the murder.
PCRA court Rule 1925(a) opinion, 3/15/19 at 1. At trial, appellant's counsel
conceded that appellant was the shooter, and presented a diminished capacity
defense, despite appellant's testimony as to his innocence.

(Id. at 1, 3;

appellant's PCRA petition, 7/19/18 at 3-4, UH 5(111), 6(A).)
The relevant procedural history, as found by the PCRA court, is as
follows:
On [October 7], 2008, after trial by jury, appellant
was convicted of first[-]degree murder, [third-degree
murder,] two counts of recklessly endangering
another person, possession of a firearm prohibited,
and
.intercepted]
communication[s].[3]
On
January 12, 2009, appellant was sentenced to life
imprisonment
without
parole
followed
by
incarceration of not less than four, nor . more than
eight years. [On January 21, 2009, appellant filed a
motion for reconsideration of sentence which was
denied by the trial court on January 23, 2009.]
On February 10, 2009, appellant filed a notice of
appeal to the Pennsylvania Superior Court. The
Superior Court affirmed the conviction and judgment
of sentence
by
memorandum
decision
on
December 30, 2009. Appellant filed a petition for
allowance of appeal with the Pennsylvania Supreme
Court, which was denied on July 14, 2010. Following
this denial, appellant did not file any petition for
post-conviction relief at the state level.
On December 9, 2010, appellant filed a pro se
petition for federal habeas corpus relief in the United
States District Court for the Eastern District of
Pennsylvania alleging ineffective assistance of counsel
3 18 Pa.C.S.A. §§ 2501(a), 2502(c), 2705, 6105(a)(1), and 5703(1),
respectively.
- 2 -

:

:■

J. A21043/20
and prosecutorial misconduct.
By order dated
May 13, 2011, the case was transferred to the United
States District Court for the Middle District of
Pennsylvania. The District Court denied appellant's
habeas corpus petition for failure to exhaust state
remedies and concluded, "[appellant] failed to qualify
for any exception for his procedural default, as he
ha[d] not alleged either cause and prejudice or a
fundamental miscarriage of justice." Gonzalez v.
Pennsylvania, No. 4: CV-11-0955, 2014 WL
2090699, at *3 (M.D. Pa. 2014). On July 19, 2016,
the United States Court of Appeals for the Third Circuit
affirmed the District Court's decision. Appellant filed
a petition for writ of certiorari to the U.S. Supreme
Court on January 12, 2017, which was denied on
March 25, 2019.
On July 19, 2018, appellant filed a pro se motion for
post-conviction collateral relief. On August 3, 2018,
[the PCRA court] appointed Brian Gaglione, Esq., as
appellant's counsel.
On March 1[5], 2019, after
hearing,[4] [the PCRA] court issued a PCRA opinion
and order denying appellant's PCRA petition and
affording appellant thirty (30) days to file an appeal
with the Pennsylvania Superior Court. Appointed
counself,] Brian Gaglione, Esq., failed to file a timely
appeal. On August 19, 2019, appellant filed a pro se
PCRA petition for restoration of appellate rights,
nunc pro tunc, based on the allegation his
court-appointed counsel failed to file a timely appeal,
and
that said
failure
constituted per se
ineffectiveness of counsel. On September 16, 2019,
[the PCRA court] removed Brain [sic] Gaglione, Esq.,
and appointed Janet Marsh Catina, Esq. as
[appellant's court-appointed attorney and scheduled
a hearing.
On November 8, 2019, after hearing and with the
concurrence of the Commonwealth, [the PCRA] court
granted
[appellant's
pro
se
petition
for
reinstatement of appellate rights, nunc pro tunc.
Appellant was afforded thirty (30) days to file an
4 The hearing was held on January 7, 2010.
- 3 -

. V

J. A21043/20
appeal with the Pennsylvania Superior Court.
Appointed counsel, Janet Marsh Catina, Esq., failed to
file a timely appeal. By order dated February 21,
2020, [the PCRA] court reinstated appellant's
appellate rights and afforded thirty (30) days to file
an appeal with the Pennsylvania Superior Court. In
addition, [the PCRA court] removed Janet Marsh
Catina, Esq. as counsel, and appointed Lauren E. Allu,
Esq., as counsel to represent appellant for the purpose
of.appeal.
Appellant filed his notice of appeal on March 2,
2020. ...
PCRA court Rule 1925(a) opinion, 4/15/20 at 1-3 (extraneous capitalization
omitted; some bolding and italics added). On March 4, 2020, the PCRA court
ordered appellant to file a concise statement of errors complained of on
appeal, pursuant to Pa.R.C.P. 1925(b). Appellant timely complied. The PCRA
court filed its Rule 1925(a) opinion on April 15, 2020, incorporating its prior
PCRA opinion and order of March 15, 2019.
Appellant raises the following issues on appeal:

1.

Did the trial [c]ourt commit reversible error
when it held that a new constitutional right was
not created by the Supreme Court's decision in
McCoy v. Louisiana, 138 S.Ct. 1500 (2018)?

2.

Did the trial [c]ourt commit reversible error
when it held that the holding in McCoy v.
Louisiana, 138 S.Ct. 1500 (2018) was not
retroactive?

Appellant's brief at 6.
In his brief, appellant contends:
that his trial counsel was ineffective by questioning his
innocence, presenting a diminished capacity defense

- 4 -

J. A21043/20
without consulting [a]ppellant of the overall trial
strategy and contradicting [appellant's testimony in
court that he was innocent. Appellant argued [sic] a
violation of his constitutional rights under the Sixth
Amendment of the U.S. Constitution as incorporated
to the Commonwealth by the Fourteenth Amendment.
Specifically, [that] his constitutional rights were
violated when he was not able to decide on the
objective of his defense.
Id, at 9 (citations omitted).

Appellant argues that McCoy created a new

constitutional right that "a criminal defendant has a constitutional right to
decide the objective of his defense/' and that this right applies retroactively.
(Id, at 11.)
"When reviewing the denial of a PCRA petition, this court's standard of
review is limited to whether the PCRA court's determination is supported by
evidence of record and whether it is free of legal error. . . . We review the
PCRA court's legal conclusions de novo." Commonwealth v. Hart, 199 A.3d
475, 481 (Pa.Super. 2018) (citations and quotation marks omitted).
Initially, we note that appellant does not contend that his PCRA petition
is timely. Rather, appellant argues that McCoy created a new constitutional
right, and therefore, he falls within the new constitutional right exception to
the

timeliness

requirement.

See

42

Pa.C.S.A.

§ 9545(b)(iii).

Section 9545(b)(iii) provides that to invoke the constitutional right exception
to the timeliness requirement, the petitioner must prove that "the right
asserted is a constitutional right that was recognized by the Supreme Court
of the United States or the Supreme Court of Pennsylvania after the time

- 5 -

J. A21043/20
\! ••

period provided in this section and has been held by that court to apply
retroactively." Id.
Section 9545(b)(2) was amended to provide that, as to claims arising
after December 24, 2017, "[a]ny petition invoking an exception . . . shall be
filed within one year of the date the claim could have been presented." Id.
The constitutional right exception runs from the date of the decision
recognizing the new right. See Commonwealth v. Secret!, 134 A.3d 77, 80
(Pa.Super. 2016). McCoy was decided on May 14, 2018. Thus, appellant had
until May 14, 2019, to bring a claim under the constitutional right timeliness
exception.

Appellant satisfied the threshold requirement, for asserting the

new constitutional right exception to the timeliness requirement, by filing his
petition on July 19, 2018. To fall within the exception, however, this court
has held:
[s]ubsection (iii) of Section 9545 has two
requirements. First, it provides that the right asserted
is a constitutional right that was recognized by the
Supreme Court of the United States or this court after
the time provided in this section. Second, it provides
that the right "has been held" by "that court" to apply
retroactively. Thus, a petitioner must prove that there
is a "new" constitutional right and that the right "has
been held" by that court to apply retroactively. The
language "has been held" is in the past tense. These
words mean that the action has already occurred, i.e.,
"that court" has already held the new constitutional
right to be retroactive to cases on collateral review.
By employing the past tense in writing this provision,
the legislature clearly intended that the right was
already recognized at the time the petition was filed.

- 6 -

J. A21043/20 *
Commonwealth v. Murphy, 180 A.3d 402, 405 (Pa.Super. 2018) (citation
omitted), appeal denied, 195 A.3d 559 (Pa. 2018).
As to whether McCoy created a new constitutional right, the Supreme
Court held as follows:
When a client expressly asserts that the objective of
"/i/s defence" is to maintain innocence of the charged
criminal acts, his lawyer must abide by that objective
and may not override it by conceding guilt.
U.S. Const. Arndt. 6 (emphasis added) ....
Preserving for the defendant the ability to decide
whether to maintain his innocence should not displace
counsel's, or the court's, respective trial management
roles.
McCoy, 138 S.Ct. at 1509 (emphasis and quotation marks in original; some
citations omitted).
The Supreme Court further explained:
Violation of a defendant's Sixth Amendment-secured
autonomy ranks as error of the kind our decisions
have called "structural"; when present, such an error
is not subject to harmless-error review. . . .Structural
error affect[s] the framework within which the trial
proceeds, as distinguished from a lapse or flaw that is
simply an error in the trial process itself. An error
may be ranked structural, we have explained, if the
right at issue is not designed to protect the defendant
from erroneous conviction but instead protects some
other interest, such as the fundamental legal principle
that a defendant must be allowed to make his own
choices about the proper way to protect his own
liberty. An error might also count as structural when
its effects are too hard to measure, as is true of the
right to counsel of choice, or where the error will
inevitably signal fundamental unfairness, as we have
said of a judge's failure to tell the jury that it may not-

- 7 -

!■

i

j. A21043/20
convict unless it finds the defendant's guilt beyond a
reasonable doubt.
Under at least the first two rationales, counsel's
admission of a client's guilt over the client's express
objection is error structural in kind,
Such an
admission blocks the defendant's right to make the
fundamental choices about his own defense. And the
effects of the admission would be immeasurable,
because a jury would almost certainly be swayed by a
lawyer's concession of his client's guilt.
Id. at 1511 (citations and quotation marks omitted).
McCoy, however, did not recognize a new constitutional right.

In

Commonwealth v. Weiss, 81 A.3d 767 (Pa. 2013), our supreme court
stated:
[0]nly a criminal defendant has the authority to
concede criminal liability and authorize counsel to
present a defense of diminished capacity. Counsel
cannot do so over the objections of a client who
Commonwealth v.
maintains his innocence.
Weaver, ... 457 A.2d 505, 506-07 (1983) (holding
that even if diminished capacity was the only viable
defense, trial counsel would be deemed ineffective for
presenting this defense without the consent of the
defendant).
Id. at 798. Furthermore, a recent panel of this court held:5
[A] defendant's "secured autonomy" under the Sixth
Amendment is not a "new" constitutional right. See,
e.g., Florida v. Nixon, 543 U.S. 175, 125 S.Ct. 551,
160 L.Ed.2d 565 (2004) (recognizing defendant's
ultimate authority to decide whether to plead guilty,
waive jury trial, testify in his own defense, or take
appeal); Faretta v. California, 422 U.S. 806, 95
S.Ct. 2525, 45 L.Ed.2d 562 (1975) (explaining Sixth
5 "This panel is not empowered to overrule another panel of the Superior
Court." Commonwealth v. Beck, 78 A.3d 656, 659 (Pa.Super. 2013).
- 8 -

J. A21043/20
Amendment grants to accused personally right to
make his own defense; Sixth Amendment speaks of
"assistance" of counsel; "assistant/' however expert,
is still assistant). McCoy simply applied a defendant's
well-rooted Sixth Amendment right to autonomy to a
See,
e.g.r
new
set
of
circumstances.
Commonwealth v. Garcia, 23 A.3d 1059 (Pa.Super.
2011), appeal denied, 614 Pa. 710, 38 A.3d 823
(2012) (holding application of criminal defendant's
long-standing constitutional right to effective
assistance of counsel to new set of facts did not create
"new constitutional right" under PCRA).
See
42 Pa.C.S.A. § 9545(b)(l)(iii).
Commonwealth v. Hoffman, 2020 WL 200838 at *2 (Pa.Super. January 13,
2020) (unpublished memorandum) (quotation marks in original); see also
Commonwealth v. Manus, 2019 WL 2598179 (Pa.Super. June 25, 2019)
(unpublished memorandum). Therefore, appellant has failed to meet the first
prong of the new constitutional right timeliness exception.
Assuming, arguendo, that McCoy recognized a new constitutional
right, the exception in Section 9545(b)(l)(iii) would still be inapplicable.
Moreover, even assuming that McCoy announced a
newly recognized constitutional right, appellant has
failed to establish that the McCoy decision applies
retroactively to cases on collateral review. The
Supreme Court of Pennsylvania has expressly stated
that "the language 'has been held' in Section
that
a
retroactivity
means
9545(b)(l)(iii)
determination must exist at the time that the petition
is filed." Commonwealth v. Abdul-Salaam, 812
A.2d 497, 502 (Pa. 2002) (emphasis added). The
Supreme Court of the United States has also made no
such determination.
Commonwealth. v. Traub, 236 A.3d 1112, 2020 WL 1922527 *3 (Pa.Super.
April 21, 2020) (unpublished memorandum) (emphasis and quotation marks

-9-

J. A21043/20
in original). See also Commonwealth v. Murphy, 180 A.3d 402, 405-406
(Pa.Super. 2018) (holding new constitutional right exception only applies if
Supreme Court of United States or Supreme Court of Pennsylvania held right
at issue applies retroactively), appeal denied, 195 A.3d 559 (Pa. 2018).
Here, appellant has failed to establish that McCoy has been held by the
Supreme Court of the United States to apply retroactively on collateral review.
See Commonwealth v. Brown, 2020 WL 3224911 (Pa.Super. June 15,
2020)

(unpublished

memorandum)

(holding

McCoy does

not

apply

retroactively).6
For the preceding reasons, appellant's petition cannot satisfy either
prong of the PCRA's new constitutional right timeliness exception and,
therefore, the PCRA court did not err or abuse its discretion in dismissing1
appellant's petition.
Order affirmed.
Judgment Entered.

Joseph D. Seletyn, Esq.
Prothonotary

Date: 11/16/20

6 Several panels of this court have held McCoy does not apply retroactively,
including Commonwealth v. Parker, 2020 WL 755044 *3 (Pa.Super.
February 14, 2020) (unpublished memorandum).

- 10 -

i

J

/

/

APPENDIX

'
\

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

No. 685 MAL 2020

Respondent
Petition for Allowance of Appeal
from the Order of the Superior Court
v.
MIGUEL GONZALEZ,
Petitioner
ORDER

PER CURIAM
AND NOW, this 12th day of May, 2021, the Petition for Allowance of Appeal is
DENIED.

A True Copy Amy Dreibelbis, Esquire
As Of 05/12/2021

Attest:
__________
Deputy Prothonotary
Supreme Court of Pennsylvania

